<html>
<title> - PROCUREMENT OF NAVY BOAT BARRIERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-59]
 
                   PROCUREMENT OF NAVY BOAT BARRIERS

                               __________

                                HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              JUNE 6, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-534 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
NEIL ABERCROMBIE, Hawaii             ROSCOE G. BARTLETT, Maryland
JAMES R. LANGEVIN, Rhode Island      KEN CALVERT, California
RICK LARSEN, Washington              TERRY EVERETT, Alabama
MADELEINE Z. BORDALLO, Guam          JO ANN DAVIS, Virginia
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            JOE WILSON, South Carolina
JOE SESTAK, Pennsylvania
                  Will Ebbs, Professional Staff Member
                 Heath Bope, Professional Staff Member
               Jenness Simler, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, June 6, 2007, Procurement of Navy Boat Barriers.......     1

Appendix:

Wednesday, June 6, 2007..........................................    27
                              ----------                              

                        WEDNESDAY, JUNE 6, 2007
                   PROCUREMENT OF NAVY BOAT BARRIERS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     2
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Betro, Thomas, Director, Naval Criminal Investigative Service 
  (NCIS).........................................................     4
Riddick-Brown, Cathy, Deputy Assistant Director for Acquisition 
  and Logistics, Naval Criminal Investigative Service (NCIS).....     8
Williams, James A., Commissioner, Federal Acquisition Service, 
  General Services Administration (GSA)..........................     9

                                APPENDIX

Prepared Statements:

    Betro, Thomas................................................    31
    Williams, James A............................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Bartlett.................................................    48
    Mr. Taylor...................................................    47
                   PROCUREMENT OF NAVY BOAT BARRRIERS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                           Washington, DC, Wednesday, June 6, 2007.
    The subcommittee met, pursuant to call, at 2:45 p.m. in 
room 2212, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The subcommittee will come to order.
    I would first like to make an observation to my colleagues 
that we have received a unanimous consent from the full 
committee to meet while the full committee is meeting, so in 
case anyone is questioning the legitimacy of this subcommittee 
meeting.
    Today the subcommittee will receive testimony from senior 
officials at the Naval Command Investigative Service, or NCIS, 
or the General Services Administration, GSA, on the acquisition 
of floating barriers, which, along with other measures, help 
protect Navy ships and installations from the specific threat 
of small-boat attack.
    Testifying before this committee today we have Mr. Thomas 
Betro, Director of NCIS; Ms. Cathy Riddick-Brown, Deputy 
Assistant Director for Acquisition and Logistics at NCIS; Mr. 
James Williams, Commissioner of the General Services 
Administration, GSA. On behalf of the members of the 
subcommittee, I thank you for coming and look forward to your 
testimony.
    After the tragic suicide bombing of the USS Cole in October 
of 2000, the Navy correctly recognized that additional security 
measures must be taken to protect our ships pierside and at 
anchor. The NCIS was given the task to lead the effort in this 
vital force protection initiative.
    Unfortunately that effort appears to have been beset with 
contractual irregularities which have caused significant 
additional costs to our Nation's taxpayers. Make no mistake, 
this subcommittee fully supports force protection measures. 
This subcommittee under both the chairmanship of Mr. Bartlett 
and continuing today has led the fight to up-armor Humvees, 
expedite improved body armor and helmets, and, most 
significantly, increase the rate of production of mine-
resistant, ambush-protected vehicles, commonly known as MRAPs.
    Our main concern is with cost and schedule overruns in Navy 
and Marine Corps programs. Unfortunately, I am hard pressed to 
point to a single significant acquisition program which is 
currently progressing on budget or on schedule.
    Members of this subcommittee are determined to provide to 
our Navy and Marine Corps the best ships and equipment in 
sufficient numbers that the Nation can provide, but we will 
continue to be frustrated as program after program reports cost 
overruns and schedule delays.
    It is not the concept of installing force protection 
barriers which brings us here today. In fact, I applaud former 
Chief of Naval Operations (CNO) Admiral Vern Clark with 
recognizing that our Nation has a vulnerability and moved 
quickly to solve it. I am sure he expected his organization 
would execute his orders with the proper level of 
professionalism.
    Today we on this subcommittee, with the full support of our 
full committee and Chairman Ike Skelton, are attempting to fund 
the construction of 313 ships for our United States Navy for 
our current CNO Mike Mullen. We will not be able to accomplish 
this goal if the service itself cannot adequately handle 
routine acquisition projects. Every dollar wasted is a dollar 
that cannot go to buy a ship or an aircraft or right now an 
MRAP.
    This issue is particularly troubling since our committee 
was first made aware of possible waste of taxpayers' money by 
reading on the front page of the Washington Post. I was not 
briefed, nor do I believe that any of the members of this 
subcommittee were informed by the Navy that there had been 
irregularities in contracting.
    Based on the information available to this committee, it 
appears that the acquisition program violated a number of 
standard procedures. These include the improper use of the 
governmentwide GSA services contract which was designed to 
provide IT support to government agencies; the use of multiple 
invoices to stay below contract price thresholds; and 
authorizing unnecessary contractor fees. These are serious 
irregularities, possibly criminal.
    What is of interest today are the questions: How did this 
happen, where was the oversight, why did it take two years for 
the improper practices to be revealed, and, most importantly, 
what have you done to fix the internal problem?
    Finally, I would like to remind the members of this 
subcommittee that an ongoing criminal investigation into these 
matters is in practice. It is not the intentions of this 
hearing to jeopardize that effort. I understand that the NCIS 
and the GSA have continuing efforts to resolve all issues 
relating to these contracts. I further understand that based on 
this event, the NCIS and the GSA have reorganized departments 
and have accomplished other internal changes to prevent this 
type of issue from occurring again. I look forward to the 
witnesses' testimony concerning these changes.
    I will now turn to my friend, the gentleman from Maryland, 
Ranking Member Roscoe Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
  MARYLAND, RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    Good afternoon, ladies and gentlemen. I wish I could say we 
were here today to applaud the Navy's responsiveness to an 
urgent force protection requirement that emerged after the 
attack on the USS Cole in Yemen on October 12, 2000. This is a 
personal and important issue to me. It may seem unimaginable, 
but 2 of the 17 sailors who were killed on the USS Cole came 
from small towns in Washington County, Maryland. U.S. Navy 
Seaman Craig Wibberley from Williamsport, and Fireman 
Apprentice Patrick Roy of Keedysville were both 19.
    What I will always remember, and this was before 9/11, were 
the hundreds and thousands of people who lined the routes to 
Craig Wibberley's grave at St. Mark's Episcopal Church in 
Booneboro and Patrick Roy's grave at Antietam National 
Cemetery. The Civil War hallowed ground was reopened by the 
National Park Service at the request of Patrick's family.
    Unfortunately, the good work the Navy did do to ensure our 
sailors and marines were protected from small-boat attacks 
while they were at port or anchored have been overshadowed by 
the recent article in the press headlining the millions of 
dollars apparently wasted on this important effort. So for the 
record, let me echo Chairman Taylor's remarks and emphasize 
that in comparison to the amount of time it typically takes the 
DOD to procure a new capability, the speed of this program was 
indeed impressive. From the time of the attack, the fleets's 
requirements for barriers were identified and the funds 
provided within three months. A solution was found and tested 
within five months after that, and orders were being placed 
within five months after testing.
    By the time allegations of procurement irregularities 
surfaced two years ago, most of these systems were installed 
and protecting our men and women. That is good news. Sadly, we 
now know that this program had its share of bad news. I am 
interested in the testimony from our witnesses today because I 
believe there is more to this story than appeared in the press. 
I am hopeful that we will learn that the system responded 
appropriately and addressed any wrongdoing that may have been 
found. But whether the story represents another example of 
systemic problems with our defense acquisition system, or 
whether this is merely a case of a few bad apples, those are 
two important takeaways.
    First, Mr. Taylor is right. The first time I learned of 
this was when I read the paper a couple of weeks ago. While I 
understand that an investigation is ongoing, and it would be 
inappropriate to reveal too many details publicly, I would 
strongly encourage the Navy to keep us informed about these 
matters. It does a disservice to the good work of our 
acquisition personnel who perform every day on behalf of the 
warfighter and taxpayer for Congress to remain in reactionary 
mode in responding to incidents after they are first reported 
in the media.
    Second, we have another lesson in the need for thorough 
acquisition workforce training and understanding contractual 
issues not only within acquisition programs, but also within 
the investigative services and the prosecutor's office.
    Clearly, it is possible that a more thoroughly trained 
acquisitions staff within NCIS might have caught these issues 
earlier or better, yet kept them from happening in the first 
place. This committee is strongly supportive of keeping 
inherently government functions within the government, in part 
to avoid the cost of contractors who provide little value added 
to the procurement process. I sincerely hope the Department of 
Defense and the Congress can work together to stem the erosion 
of these critical functions within the government.
    Again thank you to our witnesses, and thank you, Mr. 
Chairman. I hope we learn from valuable lessons today.
    Mr. Taylor. The Chair now recognizes Mr. Thomas Betro.

      STATEMENT OF THOMAS BETRO, DIRECTOR, NAVAL CRIMINAL 
                  INVESTIGATIVE SERVICE (NCIS)

    Mr. Betro. Thank you, Mr. Chairman, Ranking Member 
Bartlett. It is a pleasure to be here today to try to address 
this issue of procurement of boat barriers. I had submitted a 
statement for the record, but if it pleases the committee, I 
would like to summarize that statement orally today.
    Mr. Taylor. Mr. Betro, it is the custom of this committee 
to have a five-minute rule. It has been the custom of this 
subcommittee to allow the witness to speak as long as he would 
like as long as we don't find ourselves in a filibuster. So 
with unanimous consent, we will waive the five-minute rule and 
allow you to speak freely.
    Mr. Betro. Thank you, Mr. Chairman.
    My name is Thomas Betro, and since January 2006 I have 
served as Director of the Naval Criminal Investigative Service. 
With me is Cathy Riddick-Brown, who is our Deputy Assistant 
Director for Acquisition and Logistics.
    We very much appreciate the subcommittee's sensitivity to 
the fact that the matter before us today remains the focus of 
an ongoing criminal investigation. There will be some 
limitations, I believe, on what we can discuss in an open 
hearing, but we understand the subcommittee's desire to receive 
information, and we will be as responsive as we can to those 
desires.
    As the element within the Department of the Navy that has 
primary responsibility for investigating procurement fraud, we 
are acutely sensitive to the fact that every time a Navy dollar 
is wasted, it means one less dollar to support our warfighters. 
As we speak today, approximately 120 NCIS personnel are 
deployed to Iraq, Afghanistan, the Horn of Africa and elsewhere 
in support of the global war on terror. We understand that lost 
dollars may mean the difference in NCIS's ability to properly 
train and equip our own personnel before we send them in harm's 
way.
    I would like to start today by highlighting some of the 
things that NCIS has done relative to the reported 
improprieties associated with the boat barrier procurements.
    In June 2003, NCIS initiated a criminal investigation into 
these matters following the receipt of allegations of 
improprieties. We initially tasked the NCIS inspector general 
to look into these matters, but upon determination that there 
may be some criminal involvement, the case was transferred to 
our Washington, D.C., field office where they initiated a 
criminal investigation.
    From the outset, NCIS has included the Defense Criminal 
Investigative Service, which is the felony investigative arm of 
the Department of Defense Inspector General, in all of our 
investigative efforts. This includes interviews, 
interrogations, and even polygraph examinations of former NCIS 
employees. All 24 NCIS investigative reports associated with 
these matters have been provided to both DCIS and the GSA 
Inspector General's Office. We also sought out and received 
audit support from the Defense Contract Audit Agency. We have 
shared information fully with our partners in this joint 
criminal investigation.
    Moreover, NCIS and DCIS have jointly presented this case to 
three separate U.S. Attorneys for potential prosecution and 
civil action starting in April 2004. NCIS has been diligent in 
pursuing both prosecution and civil remedies. The case remains 
pending before the U.S. Attorney for the District of Columbia.
    Additionally, upon determining that these improprieties 
occurred, NCIS made major structural and process changes. In a 
moment Ms. Riddick-Brown will address procurement reforms we 
have implemented.
    I want to note that in October 2003, NCIS divested itself 
of the mission of technology validation, procurement and 
installation of physical security equipment, including the boat 
barriers in question. We have also disestablished the NCIS 
department that had been responsible for these procurements. 
Because we divested ourselves of these operations and 
disestablished this department, we have had to reconstruct many 
of the events described today from our investigative case files 
and from the recollection of those who worked in that 
department but not directly involved in the Waterside Security 
Systems. None of the individuals who were directly involved by 
those procurements are currently employed by NCIS.
    Let me turn now to the areas that the subcommittee 
specifically inquired about. First, what was the requirement 
for these barriers, and how did NCIS become the lead 
organization for their procurement? The requirement was 
identified in the aftermath of the USS Cole in October 2000. 
Within weeks of that event, each of the fleet commanders was 
tasked by the Chief of Naval Operations to identify measures to 
boost force protection. Several fleets identified the need for 
boat barriers.
    The NCIS Law Enforcement Physical Security Department, at 
the time known as NCIS Code 24, was tasked to execute the 
funding identified for these measures. At the time, Code 24 was 
responsible for program management of a number of Navy physical 
security systems stemming from additional CNO staff 
responsibilities held by the Director of NCIS, as the Special 
Assistant to the CNO for Naval Investigative Matters and 
Security.
    Prior to the Cole attack, Code 24 had the responsibility 
for DON electronic security system design and installation, as 
well as other security systems, though not boat barriers. In 
the immediate wake of the Cole bombing, Code 24 and contractor 
personnel conducted site surveys and worked to identify boat 
barrier options. In the interest of urgency, to deploy boat 
barrier capability as soon as possible, attention focused on 
commercial off-the-shelf, or COTS, solutions. The Dunlop boat 
barrier, a British system already in use by the Royal Navy in 
Scotland, was identified as the only COTS option.
    Full-scale tests of the Dunlop boat barrier system were 
conducted in San Diego in May 2001 with the help of the Naval 
Facilities Engineering Service Center. In May 2001, the Navy 
established new security standards, including requirements for 
the use of water barriers where appropriate and/or practical, 
especially for strategic assets.
    In August 2001, NCIS Code 24 was identified as the Navy 
boat barrier program manager by the CNO's staff element 
responsible for antiterrorism and force protection. From 
September 2001 to February 2003, Code 24 was involved in buying 
667 Dunlop barriers. After NCIS's original purchase of 667, 30 
more boat barriers were procured by other Navy commands. 
According to the Naval Facilities Engineering Command, NAVFAC, 
these barriers today remain in use at five CONUS and five 
OCONUS sites, with 535 deployed and 75 spares in the Navy 
inventory. Thus, some 90 percent of the barriers are still 
deployed or available for use.
    Based on the records we have, NCIS estimated that the costs 
associated with Code 24's procurement of these 667 barriers was 
$30.7 million. This is a slight downward revision from the 
estimate provided in my formal statement. Of this amount we 
estimate that some $2.6 million was applied toward contractor 
and subcontractor administrative fees.
    NCIS estimates that the cost of installing these barriers 
was some $24.1 million, including up to $2.1 million of this 
amount in similar administrative fees. I should note that we 
never have received any allegation of illegality with regard to 
the installation of the barriers.
    NCIS's Code 24 initiated boat barrier procurements in 
September 2001. It engaged GSA, which had previously supported 
NCIS security systems procurement on this acquisition. Several 
irregularities occurred thereafter. First, Code 24 sought to 
use the same GSA contract vehicle it has previously used for 
other security work. However, this contract vehicle, a small 
business set-aside Governmentwide Acquisition Contract, was 
created strictly to enable firms to provide information 
technology solutions to GSA's government customers. Code 24 
improperly sought to use this IT contract vehicle to purchase 
boat barriers, and GSA improperly agreed to this.
    Second, the boat barrier orders were improperly structured 
by Code 24 and approved by GSA so as not to exceed the $3 
million each. In this manner, those involved sought to 
circumvent competition requirements.
    Finally, a security consultant utilized by Code 24 to 
advise on boat barrier requirements, a single individual doing 
business as P-CON, was also directly responsible as a 
subcontractor for purchasing boat barriers on behalf of prime 
contractor Northern NEF. As the liaison between the vendor of 
boat barriers, Dunlop, and Northern NEF under the GSA contract, 
P-CON received a fee for each task order handled. In essence, 
P-CON both helped specify the requirements for affected 
installations and profited from the purchase of barriers slated 
for those installations. In March 2002 P-CON was removed from 
the middle of this arrangement, but P-CON had already earned a 
fee on the procurement of the first 317 of the 667 boat 
barriers ordered by Code 24.
    Code 24 initiated its last purchase of boat barriers in 
February 2003, supported by RMES, which by then had succeeded 
Northern NEF as the prime contractor. In May 2003, NCIS 
received allegations of potential illegalities associated with 
the boat barrier procurements. The NCIS IG was tasked to look 
into these matters, and at the same time NCIS was told by GSA 
that an audit had identified irregularities with these 
procurements. Upon determining that criminal violations may 
have occurred, the NCIS IG referred this matter to our 
Washington, D.C., field office in June of 2003. Also in June, 
NCIS asked DCIS to participate in the investigation and first 
briefed the assistant U.S. Attorney heading the Criminal 
Division for the District of Maryland on this matter.
    In July 2003, NCIS met with the GSA OIG to obtain 
preliminary audit findings. These findings heightened NCIS's 
concerns, and in August of 2003 the manager of the NCIS boat 
barrier program was polygraphed twice by NCIS. In September 
2003, he resigned. That same month the P-CON security 
consultant was escorted out of NCIS headquarters.
    At this time, NCIS leadership made a determination that the 
agency did not have the capacity to handle this burgeoning 
acquisition program. For context, in fiscal year 2000, Code 24 
received $4.4 million to execute physical security equipment 
responsibilities for the entire Navy. In fiscal year 2001, 
following the Cole attack, this number quadrupled to over $17 
million. The next year following 9/11, the figure grew 
astronomically to $106 million. Moreover, the new requirements 
were for equipment that was generally different from that which 
Code 24 had historically purchased.
    In August 2003, NCIS proposed divesting itself of these 
responsibilities in favor of a naval command better able to 
manage these requirements, and NCIS voluntarily transferred 
this mission to NAVFAC in October 2003.
    In sum, Mr. Chairman, it is recognized that in the interest 
of providing a rapid solution to protect Navy vessels, a small 
number of NCIS employees took improper actions. Shortcuts were 
taken to meet urgent fleet requirements, the expectation of 
Navy seniors, and fiscal deadlines. These actions were wrong. I 
neither excuse nor condone them. With adequate oversight, I do 
believe that these improper actions would not have occurred.
    Importantly, upon learning of these irregularities, NCIS 
took remedial measures. We investigated actively and realigned 
functions, and we undertook major process reforms. In the end 
the barriers that were procured were sufficient to satisfy the 
Navy's physical security requirements for ships in port. They 
have been in place for several years, and the vast majority of 
them are still in service.
    The purpose of the barriers was to deter and prevent small-
boat attacks similar to the attack on the USS Cole. We do not 
know whether such attacks would have occurred had these 
barriers not been installed, but the barriers undoubtedly have 
provided a deterrent.
    With that, let me ask Mr. Riddick-Brown to offer some brief 
comments on our acquisition reforms. Thank you.
    [The prepared statement of Mr. Betro can be found in the 
Appendix on page 31.]

STATEMENT OF CATHY RIDDICK-BROWN, DEPUTY ASSISTANT DIRECTOR FOR 
ACQUISITION AND LOGISTICS, NAVAL CRIMINAL INVESTIGATIVE SERVICE 
                             (NCIS)

    Ms. Riddick-Brown. Mr. Chairman, Mr. Bartlett and 
distinguished Members, I am Cathy Riddick-Brown. I am a GS-15 
supervisory contract specialist at NCIS. I joined the 
organization in July of 2004, and in this capacity, I serve as 
the Deputy Assistant Director for Acquisition and Logistics.
    I would like to highlight a few things that Director Betro 
shared earlier and talk about the measures that we have taken 
to improve our acquisition process.
    First of all, we did divest ourselves of the function to 
procure, to assess, and to install any equipment or processes 
in Waterside Security Systems. That now is handled by NAVFAC. 
Equally important, we disestablished Code 24 that used to 
manage that program.
    Additionally, with the creation of my department, the 
Acquisition and Logistics Department, we have put in place 
acquisition professionals with currently combined 70 years of 
procurement experience. Currently, our acquisition process, we 
manage about $30 million. Also very importantly is we have in 
the department created a training program for Contracting 
Officer's Representatives, also known as CORs, and in this 
training program the responsibility of a COR is to have the 
technical expertise on contracting matters, whatever they may 
be. This is required not only by DOD and the Department of 
Navy, but it is required for the Federal Government if you are 
going to have a contract that requires technical oversight. 
These individuals are trained and certified and recertified 
once every three years as the programs are currently managed.
    Additionally, we also ensure that we are following the 
Federal Acquisition Regulations, the FAR; we are following the 
DFARS, the Defense Federal Acquisition Regulations Supplement; 
and also Navy's internal process, Navy Marine Corps Acquisition 
Regulation Supplement. We follow those; our teams are trained 
in those requirements. We follow those processes.
    Also most recently, DOD and the Department of the Navy 
revised their policy from 2002 that talked about if you have 
requirements that exceed $100,000, and you plan to use non-DOD 
contracting assets, you must have what is called an acquisition 
strategy. The revision to that legislation talks not only to 
services, but it also talks to supplies. Further, any DOD 
organization that will have requirements that will exceed 
$100,000, be it a service or supply, must have an acquisition 
strategy, must go to the comptroller for review, and also a DOD 
contracting officer, and we do follow that practice.
    Mr. Chairman, I do believe had these mechanisms and 
practices been in place and adhered to before 2004 when I 
arrived, we wouldn't be here discussing this matter.
    I gladly will respond to any questions you might have 
regarding our reform and our contracting acquisitions. Thank 
you very much.
    Mr. Taylor. Mr. Williams, do you have a statement?
    Mr. Williams. Yes, I do, sir.
    Mr. Taylor. Would you like to begin?

     STATEMENT OF JAMES A. WILLIAMS, COMMISSIONER, FEDERAL 
   ACQUISITION SERVICE, GENERAL SERVICES ADMINISTRATION (GSA)

    Mr. Williams. Good afternoon, Chairman Taylor, Ranking 
Member Bartlett and committee members. I am Jim Williams, 
Commissioner for the Federal Acquisition Service within the 
U.S. General Services Administration. I am pleased to appear 
before this subcommittee to testify on GSA's role in the 2002-
2003 procurement of floating security barriers designed to 
protect U.S. Navy ships in port or at anchor.
    GSA is the central acquisition agency in the Federal 
Government, and its Federal Acquisition Service leverages the 
government's buying power on behalf of Federal agencies by 
acquiring products, services and solutions at best value in 
support of agency missions.
    Over the last five years, GSA set out a program to address 
and carry out significant changes in the management and 
execution of its acquisition and contract management policies, 
procedures and practices. GSA and the Federal Acquisition 
Service have made significant positive management and financial 
changes to our procurement operations over the last five years 
to ensure our customers get best value for their contracting 
requests.
    Several years ago GSA senior management reviewed our 
contracting activities, including GSA's Office of the Inspector 
General, performing audits of contracting practices throughout 
GSA. One of the serious problems found was the purchase of boat 
barriers made by GSA's then Federal Technology Service on 
behalf of NCIS, which began shortly after the terrorist attacks 
of September 11, 2001, and in the aftermath of the attack on 
the USS Cole.
    The original contract request was for floating security 
barriers designed to protect American men and women serving on 
our Navy ships. In 2003, after becoming aware of the ongoing 
GSA IG audit and the issues identified on the boat barrier 
projects, GSA terminated for the convenience of the government 
all remaining work on this matter.
    GSA recognizes serious contracting irregularities that 
occurred and moved swiftly and aggressively to fix the problem 
and prevent it from happening again. GSA made the corrective 
action in the Federal Technology Service the top priority for 
the agency. The OIG also recommended several areas that needed 
to be improved, and GSA senior management agreed with those 
audit findings and recommendations and took action to address 
them.
    GSA created an initiative entitled Get It Right to 
specifically address acquisition concerns. Our Get It Right 
initiative made GSA a better, more effective and compliant 
contracting agency. I would like to specifically highlight 
several key areas implemented under the Get It Right program 
where GSA is a better agency as a result of the hard lessons 
learned years ago.
    Strengthened management controls: GSA instituted a review 
process for preaward task orders over $1 million using contract 
review boards, which includes senior managers in that review. 
In addition, GSA has a policy that all task orders over $5 
million must be reviewed by GSA legal counsel prior to award. 
The agency also conducts procurement management reviews 
annually by a team of GSA procurement experts external to the 
area reviewed.
    Training for GSA's contracting and program officers: GSA 
has worked aggressively to provide core training in 
appropriations law, the proper use of schedules and 
governmentwide acquisition contracts, and project management 
training and certification.
    Customer relationship management: We have implemented a GSA 
working group that meets weekly to address GSA DOD acquisition 
issues and concerns from both agencies, and we have recently 
signed a joint memorandum agreement with the Department of 
Defense that further outlined our commitment to ensure a sound 
and compliant acquisition process.
    Contractual results: In December of 2006, GSA's Office of 
the Inspector General published the results of a second series 
of audits of the Federal Acquisition Service. I am proud to 
report that the OIG's findings showed GSA had significantly 
addressed weaknesses previously found in our contract 
management practices. Specifically, the OIG said that FAS was 
providing acquisition services with proper management and 
internal controls in place. We take management and internal 
controls seriously at GSA, and the time to improve our 
controls, train our employees, and develop improved customer 
relationship management has resulted in significantly improved 
contract management practices.
    In summary, GSA recognizes that we have a responsibility to 
provide sound acquisitions for our Federal customers. Our 
employees are inspired to help our customer agencies be better 
stewards of taxpayer dollars and more effective and efficient 
in meeting their missions every day by providing best value 
products services and solutions in compliance with Federal laws 
and rules.
    Thank you, Mr. Chairman. I welcome any questions you or the 
committee may have.
    [The prepared statement of Mr. Williams can be found in the 
Appendix on page 40.]
    Mr. Taylor. Thank you, and I want to thank all of you for 
appearing. The motto of one of our service academies is: Deeds, 
not words. I have got to tell you after hearing your testimony, 
I think you would have failed to fulfill that. I am hearing a 
lot of strong talk, but the fact of the matter is that 
according to what I can see, NCIS made a series of blunders.
    Again, from published reports, no one was told by NCIS to 
hire P-CON Consulting of Alexandria, someone who was already 
working for NCIS. Apparently people were paid millions of 
dollars of fees for doing absolutely nothing, and 
subcontractors to them were paid additional millions of dollars 
for apparently doing nothing.
    Four years later, yes, it is great that none of our vessels 
have been attacked from the sea as the Cole was. But four years 
later I am not convinced that this was the only solution. I am 
certainly not convinced this was the most cost-effective 
solution. I did not see a sense of urgency there. The Cole was 
bombed in October. The testing was not done until the following 
May. And so if there was any sense of urgency, why the first 6-
month delay, 8-month delay? And then apparently in a move to 
catch up, contracts were issued, it would certainly appear to 
be, through favoritism. And then a series of contracts and 
invoices are issued for slightly under the $3 million limit 
including--again, according to published reports, multiples of 
up to six on one day were issued for slightly under $3 million, 
and no one in NCIS finds this unusual? No one at GSA finds this 
unusual? This goes on for some time.
    And I have got to believe if I would have heard that 
testimony five years ago, I would have heard the same thing, 
that you have strong procedures in place to keep this from 
happening. Well, apparently you did not. And what is most 
troubling of all, apparently there has been some criminal 
wrongdoing. The taxpayers are out of a heck of a lot of money, 
and I don't see charges being levied against anyone. Your name 
is Naval Criminal Investigative Service. Why aren't you doing 
it? Again, you were the wronged party. I would think you would 
have the resources to look into this. And I would like to hear 
what you have to say to that.
    Mr. Betro. Well, Mr. Chairman, as I indicated, we 
definitely recognize there were breakdowns in oversight at NCIS 
at the time that allowed these things to occur. The small group 
of folks who were handling the procurements for that particular 
code at the time certainly were not experienced enough to be 
able to adequately carry out this large acquisition.
    Mr. Taylor. Mr. Betro, no one in the system found it 
unusual that on one day six contracts were let for slightly 
under $3 million? No one thought to think that maybe someone is 
trying to skirt the law?
    Mr. Betro. Sir----
    Mr. Taylor. No one in the whole system found that unusual?
    Mr. Betro. The only folks in the NCIS system who were 
providing any oversight to those particular statements of work 
were the individuals doing it themselves. They were--our 
processes at the time----
    Mr. Taylor. Is that a good business practice?
    Mr. Betro. It is not a good practice. It is a terrible 
business practice, one that we have corrected since then. The 
individuals who were performing the acquisitions were not even 
contract specialists. They were budget technicians who had been 
previously responsible for $800,000 worth of procurement.
    Mr. Taylor. Let's back up a little bit. Obviously you have 
looked into this. Did anyone at that time when tasked with this 
responsibility--is anyone on record of contacting anyone in the 
Navy chain of command and saying, I am not so sure we are the 
right people to be doing this?
    Mr. Betro. No, sir, not until after we noticed or were 
alerted to these improprieties.
    Mr. Taylor. At no time did someone step forward and say, we 
are not the right people, this is out of our level of 
expertise?
    Mr. Betro. No sir, at no time did we step forward prior to 
the improprieties being surfaced to senior leadership.
    Mr. Taylor. Yes, sir?
    Mr. Williams. I would just like to add that I agree with 
you, Mr. Chairman, that what was done was wrong. There were not 
proper internal controls in place. We do agree with that. I do 
believe that we did not perform this in the most cost-effective 
manner either. However, we have also instituted the reforms, 
and it was something that GSA found the problem, worked with 
our IG to identify what had gone wrong, and took quick action 
to fix it.
    Mr. Taylor. Are you prohibited by law, is NCIS prohibited 
by law from doing an internal criminal investigation?
    Mr. Betro. No, sir.
    Mr. Taylor. Since you have told me--I thought I heard you 
say we have identified wrongdoing.
    Mr. Betro. That is correct.
    Mr. Taylor. Why haven't you done so?
    Mr. Betro. Sir, we did initiate both a criminal--first an 
administrative review, which very quickly, within the first 30 
to 45 days, identified the potential for criminal wrongdoing. 
We did immediately initiate a criminal investigation into those 
matters.
    Mr. Taylor. And what became of it?
    Mr. Betro. It is still ongoing. We have presented findings 
of that investigation first to three separate U.S. Attorneys' 
offices, first in the District of Maryland in 2004. Their 
response was essentially that this was part of a larger 
investigation, and they believed it should be handled 
administratively potentially for civil remedies, and they 
suggested a new venue of Kansas City. We then took the case, we 
continued to work the case based on their review, and we did 
not go to Kansas City. At the time we believed we had proper 
venue in Virginia, the Eastern District, and we began dialogue 
almost immediately with the U.S. Attorney's Office in the 
Eastern District of Virginia pursuing both civil and/or 
criminal remedies for this investigation.
    Eventually that U.S. Attorney's office decided formally 
that another venue would be better, either Kansas City or 
Washington, D.C. We did eventually--and that is where it 
remains today--have been working with the United States 
Attorney's Office in Washington, D.C., continuing with the 
investigation, because we weren't satisfied to let it go with 
the first declination from the first U.S. Attorney's office in 
2004. We persisted in investigating and persisted in trying to 
seek justice by presenting the case to a second and now a third 
U.S. Attorney's office. We still have the potential of going 
all the way back to Kansas City to that venue if the U.S. 
Attorney's Office in Washington, D.C., also declines 
prosecution or civil remedies.
    Mr. Taylor. According to the Washington Post article, and I 
am quoting now, Northern was told by NCIS officials to hire P-
CON Consulting of Alexandria. Who were those officials?
    Mr. Betro. Those officials were the same individuals who 
remain the focus of this criminal investigation, an individual 
who no longer works for NCIS that resigned in 2003 shortly 
after these improprieties were surfaced. There does appear to 
be a preexisting relationship. And that is, as we mentioned, 
part of the details of our criminal investigation which we 
would request that we could address in--potentially in a closed 
session.
    Ms. Riddick-Brown. Sir, if I may?
    Mr. Taylor. Yes, ma'am.
    Ms. Riddick-Brown. It is not uncommon for a customer to 
say, I want to go to a particular venue. But it is the 
responsibility of the contracting officer to say, what is in 
the best interest of the government? So the record shows that 
an official said, go to a particular company, but as a 
contracting officer I must ensure that what I am doing is in 
the best interest, cost-efficient, et cetera. So the client can 
make all kinds of recommendations, but the contracting officer 
bears the burden of the decision.
    Mr. Williams. The contracting officer was at GSA after the 
joint decision was made between NCIS and GSA to move this under 
the small business thresholds for competition, which was wrong. 
Then they it put it into the sole source, legitimate sole 
source. Had it been legitimate, we would have named a small 
business company to do it. It was not legitimate to split the 
orders, to put it underneath that $3 million threshold.
    Mr. Taylor. How much money do you think would have been 
saved----
    Mr. Betro. Well, Mr. Chairman----
    Mr. Taylor [continuing]. If all the barriers had been 
purchased in one purchase order rather than in a series of 
small purchases? You have got to have some experience in that 
field.
    Mr. Betro. Yes, I think, as I mentioned in my statement, we 
would look at some of the administrative fees that were charged 
or provided to the contractors and subcontractors for their 
efforts in this procurement. There are fees; that is acceptable 
to charge some level of fee. We would probably say the fees in 
this case were excessive, should not have been accepted by us 
at NCIS, but they were not mentioned in any way as being 
excessive. That was about $4 million total between the 
procurement and the installation of the barriers.
    There is no way for us to tell on the actual base cost of 
the systems themselves. At least I certainly can't, and maybe 
our colleagues from Naval Facilities Engineering Command could, 
to say what would have been the cost. They were a COTS 
solution, we were going for a COTS solution. This is the one 
found, the only one known to be available in all likelihood. I 
guess if there was a sole source done legitimately, sole-source 
contract, they may still have ended up being the provider of 
those barriers.
    But the administrative fees that I mentioned, a little over 
$4 million that we would point to somewhere in there, I would 
say would represent the excess and potentially the wasted 
expenditure of money.
    Mr. Taylor. What are the names of the NCIS officials? Who 
directed Northern to hire P-CON Consulting?
    Mr. Betro. Mr. Chairman, I would respectfully request that 
we, if possible, address that in a closed session for the 
interest of the matter being an ongoing criminal investigation.
    Mr. Taylor. I understand you saying that, but I would also 
tell you that this is not the only acquisition program going on 
in our Nation. I would sure hate for another agency being 
bilked out of money by the same people as we speak. They have 
not been convicted of anything, but they certainly are under 
some suspicion of mismanaging the citizens' money. This is not 
the only wasteful thing going on in the Navy. The Littoral 
Combat Ship (LCS) program comes to mind. And I would hope that 
one or two things comes out of this today. Number one is that 
we are sending the message that we are going to take care of 
our troops. The second part is that this is not carte blanche 
for contractors to defraud our Nation in the process.
    And after reading these articles in the Post, I certainly 
have reason to believe that we have been defrauded, and it 
looks like an inside job. And I would like the message to be 
that those people are going to be brought to justice, and that 
steps are being taken so that this won't happen again, and that 
the message being sent is that if you use your position to 
enrich yourself or your friends, you are going to pay for it 
criminally. That has not happened yet.
    Mr. Betro. No, sir. And we will endeavor and have been 
endeavoring to continue to pursue the criminal charges 
complaints against the one or two or three individuals 
involved. And like I say, we are currently in the United States 
Attorney's Office in the District awaiting a decision.
    Mr. Taylor. I would like to request for the record--it is 
my understanding that U.S. Attorneys cannot talk about ongoing 
investigations, but it is also my understanding that those 
people who have approached a U.S. attorney are free to say, I 
have approached that U.S. Attorney and asked them to look into 
this subject. And for the record, I would like the names of the 
United States attorneys that have been approached, and what 
days they were approached, and what information was given to 
them.
    [The information referred to can be found in the Appendix 
beginning on page 47.]
    Mr. Taylor. The Chair yields to the gentleman from 
Maryland.
    Mr. Bartlett. Thank you very much.
    Had this been competed on a fast-track basis, how much 
longer would it have taken?
    Ms. Riddick-Brown. Possibly, sir, three to nine months, 
depending on the venue. If we decide to stay in a sole-source 
venue, sole sources tend to go quicker than a competitive 
venue. At a minimum three to nine months.
    Mr. Bartlett. You are all familiar with the article in the 
Washington Post. Are there any errors in that article?
    Mr. Betro. Sir, I would say there are not any latent errors 
that I can speak of, just information we mentioned that was not 
included in the article because they were not aware of. It was 
information that the authors of the articles were not aware of 
that we shared today, but generally the information in the 
article is accurate.
    Mr. Williams. I would say, sir, the information is 
accurate. I don't think it noted that while things were done 
wrong, this was a different time frame. This request came to us 
to help out one week after September 11th. There certainly was 
a sense of urgency. It still does not excuse or condone the 
wrongdoing that happened, but it was a different time, and, 
frankly, it is a different time now. I believe we have fixed 
those problems so they won't happen again under my watch.
    Mr. Bartlett. If another request like this came, how would 
the procurement proceed differently?
    Ms. Riddick-Brown. One, sir, we would put together a team 
that consists of both the requirements team, the comptroller's 
team and the contracting team within, in our case, NCIS. We 
would look at all the venues within DOD. It is always better to 
use existing contracts which can save time in that venue. You 
look at within the DOD structure what is available, you look at 
what is in the marketplace. We assess what that looks like, and 
if it, in fact, does meet our needs, we then go to either an 
existing vehicle, we either can go sole source, or we can 
compete. And there are enough venues in the acquisition arena 
that we could hopefully choose the venue that best works for 
the government.
    Following that, if, in fact, we had a competition, there 
would be an evaluation of the potential offerers, those who are 
proposing. If there was even a sole source within a small 
business venue, we could actually even compete within the small 
business venue. So there are various avenues one could take be 
it small business, be it sole source, be it competitive in that 
arena.
    But the one challenge that we always have in the arena is 
putting another adequate statement of work that reflects our 
needs so we will know where to go and get the resources to make 
our purchases, be it a service or supply. The evaluated 
contractor who is a potential offerer we then make 
determinations what is the best value to the government, and we 
then make the award.
    Mr. Bartlett. Certainly there will be occasions when time 
is of the essence, which it was deemed to be here. And we need 
to proceed very rapidly. This was a fair-sized procurement. The 
regulations as they were interpreted required that these 
contracts be let in amounts of less than $3 million. There were 
a large number of those let, sometimes several in one day, a 
clear, clear attempt to skirt the requirements.
    Recognizing that there may be times when instances--when 
time is of the essence, and we need to move very quickly, and 
we really can't wait 6 to 9 months for a competition, how can 
we structure that kind of procurement to avoid the problems 
that we had here? Clearly we just ignored the rules, and you 
have got to have it real quickly, so you can't spend more than 
3 million in one contract, so we will let three contracts in 
one day, each of them less than $3 million. That is an obvious 
ruse to get around the regulation. But recognizing that there 
may be times when we need to move very quickly, how can we do 
that without the kind of problems we created here?
    Mr. Williams. I think, sir, there are legitimate ways to do 
that within the Federal Acquisition Regulation. Other shortcuts 
were taken here that shouldn't have been taken. But where you 
have in this particular case an urgent and compelling need and 
a single source, I believe it could have been easily done by 
either NCIS, or as we do at GSA--we help agencies do their 
acquisitions--it could have been done right, and it could have 
been done fast under the existing regulations.
    Mr. Bartlett. Dave Nelson from Northern said he did not 
have any idea why NCIS selected his company. He apparently did 
not feel that he had the kind of credentials which would have 
recommended him for that contract. Why do you think the company 
was selected?
    Mr. Betro. I believe, sir, that he was inappropriately 
selected because the individuals involved tried to use an 
existing vehicle that they had been using to make other 
procurements for a while. Clearly improper. And in their 
interest to expedite and to use a system that was familiar to 
them, they used an improper vehicle, and his company was an 
8(a) set-aside.
    Mr. Bartlett. What company?
    Mr. Betro. Small business.
    Mr. Bartlett. 8(a)?
    Ms. Riddick-Brown. Yes.
    Mr. Bartlett. Why was he directed to hire P-CON, which 
apparently was one man already fully employed?
    Mr. Betro. Yes, sir. P-CON, he had been an employee--P-CON 
had been a subcontractor for NEF working for NCIS as a security 
consultant before the barrier procurements ever came up, and it 
was definitely a focus of our investigation as to why an 
individual in NCIS would have further recommended that 
individual to NEF to participate in the boat barrier 
procurements.
    As mentioned before, it is not necessarily that unusual 
that a preference or a recommendation would be made. In this 
instance we believe there was potentially some irregularities 
based on prior relationships that the individuals had which is 
a focus and a subject of our criminal investigation.
    Mr. Bartlett. When you investigated this, was there any 
value added by the Navy hiring both Northern and P-CON? What 
they did couldn't the Navy buyers have done directly? Now, I 
have trouble understanding what value is added to this 
procurement process by hiring these two companies. They did not 
do anything except let contracts to somebody else, which is 
what I thought our buyers did.
    Mr. Betro. Sir, as I mentioned, the Navy could have gone 
directly through different vehicles to Dunlop, and there is no 
question that the individuals who were involved in this took 
improper action. But clearly there was another venue or vehicle 
that we could have used to go directly without using NEF or P-
CON industries.
    Mr. Bartlett. When you say were improper, do you mean dumb 
or criminal?
    Mr. Betro. Sir, I think it could be one or the other or 
both, and I think that is what we are waiting for the U.S. 
attorney's ruling or judgment on the merits of the criminal 
investigation. Clearly the inferences there raised our concern 
that it did meet the threshold of criminal violations.
    Mr. Williams. If you don't mind, sir, I believe the 
splitting of the procurements under the competition rules was 
wrong. Then picking any company to be the prime contractor as 
Northern was with the understanding that they were not going to 
do any work was wrong. So you start with splitting the award 
was wrong, and then the GSA contracting officer agreed to that. 
That was wrong. Then picking any company, and under this 
particular 8(a) set of contracts there were 165 contractors, if 
you picked any one of them by throwing a dart at the wall and 
saying, we want you to be the prime, you don't have to do any 
work, it is just a passthrough, that was wrong.
    Mr. Bartlett. It says in the article that the auditors 
wanted to question NCIS officials about the boat barrier 
project, but NCIS officials declined to discuss it. Why would 
your people decline to discuss it with the auditors if our 
intent is to get to the truth?
    Mr. Betro. Sir, I am not aware of any NCIS officials 
declining to discuss.
    Mr. Bartlett. I thought you said the article was factual.
    Mr. Betro. I said generally I thought the article was 
accurate. That is one of the specifics that I have not been 
able to find out who might have refused. As I said, we worked 
with DCIS and GSA's OIG office almost immediately from the 
outset and have worked closely with them from that time until 
now.
    Mr. Bartlett. NCIS agents said they were conducting an 
investigation of their own and wanted to take over the case. 
GSA agreed?
    Mr. Williams. My understanding is the GSA officer and 
inspector general did agree with that.
    Mr. Bartlett. And that was four years ago?
    Mr. Williams. I believe, sir.
    Mr. Bartlett. And we still are investigating it?
    Mr. Betro. Yes, sir, still open investigation today.
    Mr. Bartlett. Seems incredible to me that that 
investigation could take more than four months let alone four 
years.
    Mr. Betro. Well, any procurement investigation does. There 
are some complexities, sir, involved with contract reviews and 
trying to find records and task orders. But we did present it 
to the first U.S. Attorney in the May time frame of 2004. So at 
that point we had investigated enough where we thought there 
was sufficient information enough for a U.S. attorney.
    We could have stopped. We could have closed our 
investigation in 2004 with that U.S. Attorney's declination, 
but we did not. We took the information they provided with what 
the weaknesses were in the case from a criminal prosecutive 
standpoint, and we continued to investigate. We continued to do 
lots more interviews, records reviews until we thought we had 
enough additional information to bring it to another U.S. 
Attorney's office, which we did.
    Likewise, that U.S. Attorney's office chose not to 
prosecute the case. We did not stop there. We could have 
stopped at that particular point in time, but we did not. We 
have continued to investigate these allegations and 
improprieties, and currently we are at a third U.S. Attorney's 
office. We also did this fully jointly with the Defense 
Criminal Investigative Service in addition to the GSA OIG. So 
it is three different investigative organizations with full 
visibility on this investigation, all sharing information and 
sharing each other's reports, jointly presenting these cases to 
the various U.S. Attorneys' offices.
    But I recognize in hindsight, now that it has come to my 
attention, there might be some things in the investigation we 
could have done more rapidly. But I do believe we have carried 
out due diligence in continuing to pursue the criminal and 
civil remedies that might be available.
    Mr. Bartlett. Mr. Chairman, I think that this case is 
instructive enough that it would be useful--I am not desirous 
of identifying specific people to be hung for this. That is not 
my goal. I am sure mistakes were made. I am sure each step--I 
hope that each step the person thought they were making the 
right decision; in hindsight they clearly did not.
    But I think this could become a textbook study on how to 
really screw up a procurement so that we wouldn't do it again. 
And I would like to see this not kind of swept under the rug 
and some people administratively disciplined or whatever. I 
would like to see this--and you can call them employee A, B and 
C if you wish, but I would like to see this exposed in the 
clear light of day, because I think there were enough things 
that went wrong here that this would be an excellent case study 
for looking at contracting in urgent situations like this so we 
did not repeat these mistakes.
    Can you get that kind of information to us so that we can 
see what we might do with that?
    Mr. Betro. Sir, we actually have an investigative time line 
that we were prepared to share if we were to go into a closed 
session and leave with the committee. It just outlined broadly 
the investigative steps and chronologies. We could make that 
available for the committee.
    [The information referred to can be found in the Appendix 
beginning on page 48.]
    Mr. Bartlett. I have a couple of questions for the record.
    Mr. Chairman, thank you very much.
    Mr. Taylor. Sure. Before going to Mr. Larsen, I would be 
curious, what is the name of the CEO of Northern NEF on or 
about the date of September 28, 2001?
    Mr. Betro. Excuse me, Mr. Chairman, I will try to find that 
name.
    Sir, I believe the president was Ken Dyer.
    Mr. Taylor. How do you spell the last name?
    Mr. Betro. D-Y-E-R.
    Mr. Taylor. Okay. With that, the Chair yields to Mr. 
Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Betro, the article says that the cost for the program 
was at least $100 million, I think. But you have testified that 
at least in the procurement of the boat barriers, NCIS 
estimates that the cost will be 30.7- after adjustment. Why 
that discrepancy? What is being counted in the article that you 
are not counting?
    And second, you also mentioned in terms of fees and costs, 
fees of $2.6 million and some other costs of 24.7- leaves about 
27.3 million that you have accounted for of your 30.7-. Where 
did that other 4.4 million go to? Can you address that for me?
    Mr. Betro. First, I believe that I was trying to address 
the total cost of the boat barrier program. The $100 million I 
can only surmise might have referenced our overall budget for 
Waterside Security Systems, which included several other things 
in addition to the boat barriers. So I am surmising that this 
article might have referred to that amount.
    The boat barrier program, as best we can reconstruct, is 
just under the total of $60 million, which included both base 
costs of the materials and installations. It also included 
those miscellaneous administrative fees which I referenced, I 
believe, totaled a little over $4 million.
    Mr. Larsen. And you are saying the procurement part of that 
60-plus million was 30.7 million?
    Mr. Betro. That is correct.
    Mr. Larsen. And then you talked about some of the fees 
associated with that procurement which still left, by my math, 
$4.4 million left unaccounted for, which I would like you to 
account for. Maybe you can account for the record.
    Mr. Betro. Yes, sir. I have it here in terms of where the 
4.4 or so million dollars went broken down between Northern 
NEF, P-CON. Those fees would be--I believe that P-CON received 
a total of $1.1 million in fees for participating as a 
middleman between Dunlop and Northern NEF, and that NEF 
received $1.5 million in fees associated with the procurement 
activity, and then in the installation piece was the remainder 
of the 4.4-, which is 1--I am sorry--$1 million in fees that 
went to a company called ITA, which was responsible for the 
installation of the boat barriers. So if I got this correct it 
is $1.1 million to P-CON, $2.6 million to NEF and $1 million to 
ITA, and I have a total of 4.7-.
    Mr. Larsen. So beyond the other $2.6 million for otherwise, 
that is not doing much.
    Actually, honestly, what is that, 6 million, 7 million out 
of 30.7 million for fees to procure the program--to procure the 
boat barriers?
    Mr. Betro. I believe, sir, that is out of 56.7.
    Mr. Larsen. Okay. About 12 percent or so; 12 to 15 percent.
    Some questions with regards to the attorneys' offices. I 
don't quite understand it. You said that USAO Maryland declined 
prosecution, and in your oral testimony you said it was because 
it was part of a larger investigation so they wanted to move it 
to Kansas City? Is that what I heard you say?
    Mr. Betro. It was presented jointly with a larger case of 
kickbacks--alleged kickbacks, which, when this first came up, 
some of the companies were the same, and so they were brought 
under a worn umbrella for ease of understanding who the 
companies and individuals were. We did subsequently break out 
the boat barrier one pure and simply by itself, but by that 
time the entire package, including P-CON and NEF and the boat 
barrier issue, were declined by the U.S. attorney's office in 
Maryland saying basically that the P-CON issues are deemed more 
administrative, and that the appropriate venue for that could 
be Kansas City where the GSA office which was the contracting 
office for those particular acquisitions.
    Mr. Larsen. Is that a determination that NCIS agreed with, 
or did not agree with but had to live with?
    Mr. Betro. We had to live with, but didn't agree with. That 
is why we went on to the Eastern District of Virginia believing 
that P-CON, the company that was middleman in this, was 
incorporated in Virginia, so we thought potentially that was a 
better venue.
    Mr. Larsen. And their determination--your written testimony 
says they asked you to explore other options, which is a 
different way of saying they declined prosecution.
    Mr. Betro. They did not formally decline; they recommended 
that they were not the appropriate venue and wouldn't consider 
the case any further.
    Mr. Larsen. Nobody says no in this business. So they were 
not going to pursue an investigation. Can I ask, was P-CON and 
Northern NEF part of this broader investigation that USAO 
Maryland declined, or was this a clean break, to your 
knowledge?
    Mr. Betro. For us it was a clean break. The other case 
involved, sir, grand jury and other related materials.
    Mr. Larsen. Maybe that can be discussed in a different 
venue.
    Then so now you are at DCAO, and there actually has been no 
determination from them whether or not a crime has been 
committed, whether or not there has been a determination that 
this needs to go any further; is that correct?
    Mr. Betro. That is correct. We have no kind of final 
determination, civil or criminal, from the U.S. Attorney's 
office here in D.C.
    Mr. Larsen. Is there an expectation when that would occur 
from your end?
    Mr. Betro. They did not give us a specific date. And so we 
will continue to make contact with them.
    Mr. Larsen. Can I--that is somewhat disconcerting. I am not 
an attorney, and some of us are up here, and some of us aren't, 
but it sure sounds like things happened that were extremely bad 
and extremely illegal from a layman's point of view.
    Can I just suggest--and I don't want this to sound smart-
alecky, but I would rather hear from you the results of the 
U.S. Attorney's office of D.C. determination rather than read 
it in the Washington Post.
    Mr. Betro. Yes, sir.
    Mr. Larsen. So certainly, I don't know how we can set that 
up or if we can even do that, but it would certainly be 
appropriate.
    Mr. Betro. We can certainly be sure that happens, sir.
    Mr. Larsen. I think Mr. Bartlett asked some questions about 
this convoluted relationship between P-CON Consulting and 
Northern NEF and the other side of the security consultant 
contract within NCIS. But just one more question, Mr. Chairman. 
It does not look like you are keeping time, but I know that Ms. 
Bordallo is here.
    For Mr. Williams, on page four of your testimony, you say 
that--this is just trying to define terminology. It says 
specifically the OIGs--the FSA was providing compliant assisted 
acquisition services with proper management. What is the 
definition of ``compliant assisted acquisition services''?
    Mr. Williams. Well, assisted acquisition services means 
that when other agencies need help doing their acquisition, 
they come to GSA with a statement of work. We then do an 
acquisition plan. We may do the competition or do the award for 
them and help them with postaward management.
    What they found, the IG, when they came back to us after 
looking at it--after they initially helped us identify these 
problems, they came back and reviewed us again and said that we 
had proper internal controls, and we were doing these assisted 
acquisitions, helping other agencies with their procurements, 
in a compliant manner, compliant with the Federal Acquisition 
Regulations.
    Mr. Larsen. Okay. One more point to make, Mr. Chairman. I 
have to step out for a meeting, and I will be right back in for 
the remainder of questioning from other Members, but just a 
quick review. From what I can gather, on the $56 million or so 
in a procurement, about 12 to 14 percent or so went to fees of 
some sort, sounds like; that we don't have a determination yet 
from the U.S. Attorney's office in D.C. on whether or not there 
will be--at least from their view, there is enough there to say 
there is either a civil violation or a criminal violation took 
place. I mean, from my understanding, we are waiting to see if 
these folks get off the hook essentially. I don't know if there 
is anything else to go beyond that, unless we go to the U.S. 
Attorney's office of Peoria, Illinois, or some other venue.
    Mr. Betro. Kansas City.
    Mr. Larsen. The final point I want to make is this whole--
this thing started in some ways because obviously there are 
individuals there who were not the folks we want in those kinds 
of positions. The second is I have seen this before, and maybe 
we could dig into this one broader issue about something we 
might call procurement migration. That is using a program that 
is not designed at all, but is available because someone sees 
it as available, so they use it for something that it was not 
designed to be used for; in other words, using a technology 
program--it has a tangential relationship with security, it is 
physical security, not technology security, but it has the word 
``security'' in it, so let's use that to pursue this other 
program. And whether you call it procurement migration or some 
other term, there are other examples of that that we have seen 
in the past several years that don't end up with the same 
extreme result, but end up with money being wasted because we 
are using things that were not designed to be used for. And 
that may be something that warrants us looking into as well.
    Thank you, Mr. Chairman.
    Mr. Taylor. I would like to thank the gentleman. If I could 
do a quick follow-up.
    Who paid P-CON the million dollars? Was it--did they get a 
check from the United States Government? Did they get a check 
from Northern? Did they get a check from Dunlop?
    Mr. Williams. It would have been made by Northern their 
prime contractor. They were a subcontractor to Northern.
    Mr. Taylor. So this is a cost of doing business that 
Northern had?
    Mr. Williams. Yes.
    Mr. Taylor. Just as a matter of curiosity, what is the time 
that a former naval uniformed person would have to wait before 
they could have gone to work for Northern under the law?
    Ms. Riddick-Brown. Well, it depends, sir. If it is $10 
million or more, then there is usually a--has to be a direct 
correlation with the program you just left than simply knowing 
about the program.
    Mr. Taylor. Are the employees or the management of Northern 
former Navy personnel.
    Mr. Betro. Not to our knowledge, sir.
    Mr. Taylor. The Chair yields to Mrs. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, and thank you for 
calling the hearing today on such an important issue. 
Unfortunately, today our full committee heard testimony about 
another force protection issue and that was on body armor, and 
the news that members of our Armed Forces in harm's way may not 
have the best body armor they need to meet the best operational 
requirements.
    And in this case today, it seems our sailors and marines in 
the wake of the USS Cole bombing had their protection 
compromised for the sake of expediency and favoritism.
    I have, Mr. Betro, I have some questions that I think 
were--some of the members here were leading up to, and I would 
like to get more information.
    How could the Navy's own inspector general and internal 
auditing units allow the prime contractors to bill one major 
contractor into many separate invoices always totaling under 
the $3 million threshold. Is this what put up the red flag?
    Mr. Betro. Ma'am, no red flags were raised internally by 
us. There was no detection of those improprieties. It wasn't 
until it was brought to our attention by the Program Integrity 
Office of the Department of Navy as one way, plus the GSA audit 
was indicating that there was some improprieties, and those 
both surfaced roughly in the spring of 2003.
    Regrettably, there was no oversight on to the actions of 
the individuals who were orchestrating.
    There were two ways this could have been caught at the 
time. Our employees certainly should have known better and 
shouldn't have done it, and certainly our next was our 
contracting officer also potentially should have advised or 
known that this shouldn't have occurred.
    So we clearly stand up and say the folks at NCIS took 
improper actions and we are trying to again further investigate 
that now.
    Ms. Bordallo. What was the time frame when you finally 
caught it?
    Mr. Betro. It was in roughly April-May of 2003.
    Mr. Williams. If you would like a little background from 
GSA, GSA's management had actually identified some problems in 
another region of GSA, and we essentially have 11 regions all 
doing similar work. They then decided we should have an audit 
done of all of the 11 regions. The original irregularities 
occurred in another GSA region, but then when they looked at 
our region out of Kansas City, that is when our Office of 
Inspector General identified the problems with the boat barrier 
project.
    Ms. Bordallo. Now on the investigation, I think Mr. 
Bartlett brought up the idea that it has been four years; is 
that correct?
    Mr. Betro. Yes, ma'am.
    Ms. Bordallo. The principals involved, were they 
reprimanded or put on leave, or how did you handle that?
    Mr. Betro. The government employee involved resigned in the 
immediate kind of wake of us initiating this investigation and 
beginning questioning of that individual, and some polygraphs.
    There is a subcontractor we have discussed earlier, P-CON, 
who was escorted out of the building, and his work with NCIS 
was terminated at that time.
    Those are the only kind of immediate--under our control, 
individuals that we took some action on immediately.
    Ms. Bordallo. Inasmuch as this investigation is ongoing and 
has been ongoing, and I find it very unusual for an 
investigation to be stretched out into a four-year period--and 
I don't know how much longer--is there a statute of limitation 
here? Would that kick in?
    Mr. Betro. Five years.
    Ms. Bordallo. How hard are you pushing this investigation?
    Mr. Betro. A lot harder right now.
    But honestly, there are lots of procurement cases that the 
U.S. Attorney's offices are taking. We are presenting the 
information to various U.S. Attorneys offices in hopes of 
getting--exhausting any final decisions regarding prosecution 
that we can get. We are continuing to pursue that. That is why 
we are at our third office. We know at least potentially there 
is at least one more venue that we could approach. But we have 
tried to persist in getting a determination on either the civil 
or prosecutive or criminal remedies for this particular case.
    Ms. Bordallo. Mr. Chairman, there is not much time left.
    Mr. Williams, I have a question for you. It seems that the 
Navy leadership was hasty to find a solution and they took 
advantage of the GWAC loose contracting guidelines. What steps, 
beyond additional training, has GSA taken to clarify the rules 
governing issuance of governmentwide acquisition contracts 
known as GWACs?
    Mr. Williams. We have done training in that area. We have 
also instituted management controls where we do reviews now 
that weren't done before. We did have a lack of proper 
management controls. We did take action across all of our 11 
regions to put in the training, the management controls, sign 
the agreement with DOD on how we were going to improve that. We 
monitor on a regular basis.
    I would say that we also ask our IG to come back in and 
check up on have we put those proper management controls in 
place.
    For these assisted acquisition services where we help other 
agencies, we feel like we are now on solid ground. We still do 
help all Federal agencies when they need help with their 
acquisitions. We don't want them to come to GSA thinking we 
take shortcuts to help them. We want them to come to us knowing 
we can help their mission in a compliant way.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    Mr. Taylor. Mr. Williams, I find several things curious. I 
would ask for your intelligence on this.
    I was here for September the 11th. The Cole was built in my 
congressional district. It was brought back to my congressional 
district for repairs. Two of my local newspaper editors, who 
are both Vietnam veterans, brought it to my attention that they 
had gotten within 50 or so yards of the Cole on the other side 
of the Pascagoula River, undetected. Just walked up. Both 
Vietnam veterans said if we had another RPG, we could have put 
another hole in it.
    I remember at another hearing bringing that to the CNO's 
attention. But I also remember going to the home port at 
Pascagoula and the shipyard and the Coast Guard station 
adjacent to it, because after they brought it to my attention, 
I felt like I had to do something. So I go to the Coast Guard 
station. Who has got responsibility for the watershop 
application of the Cole? Well, the Navy does. So I went to the 
Naval Station. Who has got responsibility of the watershop of 
the Cole? The shipyard does. Went to the shipyard. The Coast 
Guard did.
    So about the time line that this procurement is being 
issued, September 28th of 2001, it again--it is almost a year 
since the event of the attack on the Cole, and really nothing 
has happened. And I think someone could draw the conclusion 
that it wasn't until the events of September the 11th that some 
people within the Navy said, Go do something and do something 
in a hurry.
    The reason I say all of that is, Mr. Williams, now that 
someone has lit a fire under someone at the Navy to do 
something almost a year after the attack on the Cole, if they 
had come to the GSA and said we need to do something, we need 
to do something really fast, under the normal procedures could 
GSA have been tasked to buy these barriers and how quickly 
could they have done it under the normal rules? Or are there 
expedited rules that would have gone into place?
    Mr. Williams. Well, I believe we could have done the task. 
We had people who received this request from the Navy a week 
after September 11th. They did a task but they broke the rules. 
I believe we could have done it within the rules and done it 
fast, given that, as Director Betro said, this is really a 
single source. I believe you also had an urgent and compelling 
situation and the Federal acquisition regulations allow you to 
move fast when you have both an urgent and compelling 
situation.
    Mr. Taylor. How fast?
    Mr. Williams. Maybe not as fast as we did it. But probably 
if we did everything right, I think we probably could have done 
it within a couple of weeks, or maybe a month. But we did 
this--we can do an urgent, compelling, in 30 days or less. I 
believe we could have done this, and it would have been 
appropriately justified, and we could have done it in under a 
month. And we do this to the tune of several billion dollars a 
year for all Federal agencies. We now do it right. We just did 
it wrong.
    And, again, there were people who didn't have the proper 
oversight, they probably didn't have the proper training. They 
tried to break the rules to help the Navy with their urgent 
mission. It was wrong what they did, but I believe we could 
have done this in a correct manner and we could have done it 
fast.
    Mr. Taylor. Playing devil's advocate, is there any evidence 
that the rules were broken? I realize a year has gone by since 
the Cole was first attacked. Or very close to a year. But is 
there any evidence in your--from what you can see, that the 
rules were broken to expedite the purchase? Or do you feel like 
the rules were broken to enrich someone?
    Mr. Williams. Well, let me answer both questions. The rules 
were broken to expedite the purchase.
    When the Navy came to us after having already tested the 
boat barriers in May of 2001, then they came to us in 
September. Then went to our contracting officer, decided it was 
okay to split these procurements, which was wrong.
    And whether somebody enriched themselves, I think that is 
part of the ongoing investigation. And I think Director Betro 
has already talked about what he saw in that regard.
    What came to us was, as we agreed to do this under the 
small--under the threshold for competition for an 8A, to do it 
in a sole source manner, we then got a request to go to 
northern NEF and to P-CON.
    Mr. Taylor. Mr. Betro, I am curious. As Mr. Williams 
mentioned, the tests were conducted in May. It is June, July, 
August, almost all of the month of September passes, apparently 
nothing was purchased.
    Two weeks after the events of September 11th, someone gets 
a fire lighted, probably in the proximity of their body parts, 
and decides to move. Is there any evidence between May and 
September that any movement at all took place?
    Mr. Betro. I really can't answer that. I can't say NCIS 
wasn't designated until August of 2001 as being responsible for 
the program of boat barriers. And we did not--I believe the 
report was not done until August of 2001. Which suggested that 
these barriers met the minimum requirements for the intended 
purpose.
    So it was August, about 2001, when we had a program manager 
identified NCIS; the test results came back to us saying yes, 
it met the minimum threshold of requirements, and the first 
procurement was in October.
    Mr. Taylor. But that certainly in my mind gets a little 
confusing, when in all of this time apparently there is only 
one supplier, so there really should--it is not a competition 
any longer. So it is a question of whether or not that one 
supplier made a product that was adequate. Is that what took 
this long to decide, made the determination by August?
    Mr. Betro. The combination of site surveys and examinations 
of what was available commercially did come down to Dunlop, and 
then the tests were conducted and the results of the test that 
came back in August of 2001 said even though they were the only 
manufacturer, we now had some confirmation that that 
manufacturer could meet the minimum basic requirements. It is 
about the same time as, well, that NCIS was then designated as 
the program manager.
    There were things going on but until we knew we had the 
requirement met minimally at least, we weren't going to extend 
any money to procure any technology, at least boat barriers.
    Mr. Taylor. Because the Washington Post raised the issue 
and you mentioned that about 90 percent of the barriers are 
still available, was there a significant problem with the 
barriers leaking and sinking, or was that just something that 
happened to a few of them?
    Mr. Betro. I have some colleagues from Naval Command here. 
We divested on the program back in 2003 and so we would not 
have been tracking, and I don't have information available.
    Mr. Taylor. But you started buying them in September of 
2001. I would imagine by now there is a sense of urgency. So 
those deliveries were in a month or two of that, and I would 
have hoped that you would have known early on if you had 
problems on them.
    Mr. Betro. I had no information available to us.
    Captain Samuels. I am Mark Samuels. I am the commanding 
officer of Naval Facilities Engineering Service Center, which 
is technical agent for NAVFAC. Like my other dynamic pieces of 
equipment that is maintained and that has to be done, we have 
been involved in some of this maintenance, but most of that has 
been done at the local bases. And I am not prepared right now 
to talk about any of those specific patterns or problems that 
may exist.
    Mr. Taylor. If you would, Captain, for the record, since 
you have been identified as a program officer, if there have 
been a--when I say ``substantial,'' over ten percent of them 
having problems with leaks or other quality effects that have 
lead to a premature life diminishment, I would like you to get 
back to this committee.
    Captain Samuels. Yes, sir.
    Mr. Taylor. If there is anything consistent that was 
causing this problem that could be pointed to as a 
manufacturing problem.
    Captain Samuels. Yes, sir.
    Mr. Taylor. Mr. Bartlett.
    Mr. Bartlett. Thank you. I don't have any further 
questions.
    Mr. Taylor. If I may, I think Mr. Betro has offered to give 
us a time line of what he feels are the criminal events. That 
would have to be done in closed session. And I would, if Mr. 
Betro is prepared to do that today, I would be open to doing so 
today if that fits your schedule.
    With that in mind, I am going to call this hearing to a 
close and announce a ten-minute recess, and then ask our 
panelists to come back at that time so we can receive testimony 
in closed session.
    I would also like to ask unanimous consent for Mr. Ron 
O'Rourke to attend that hearing in his capacity.
    Mr. Bartlett. So moved.
    Mr. Taylor. The hearing is adjourned.
    [Recess.]
    [Whereupon, at 4:20 the subcommittee proceeded in Closed 
Session.]
?

      
=======================================================================




                            A P P E N D I X

                              June 6, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 6, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7534.001
    
    [GRAPHIC] [TIFF OMITTED] T7534.002
    
    [GRAPHIC] [TIFF OMITTED] T7534.003
    
    [GRAPHIC] [TIFF OMITTED] T7534.004
    
    [GRAPHIC] [TIFF OMITTED] T7534.005
    
    [GRAPHIC] [TIFF OMITTED] T7534.006
    
    [GRAPHIC] [TIFF OMITTED] T7534.007
    
    [GRAPHIC] [TIFF OMITTED] T7534.008
    
    [GRAPHIC] [TIFF OMITTED] T7534.009
    
    [GRAPHIC] [TIFF OMITTED] T7534.010
    
    [GRAPHIC] [TIFF OMITTED] T7534.011
    
    [GRAPHIC] [TIFF OMITTED] T7534.012
    
    [GRAPHIC] [TIFF OMITTED] T7534.013
    
    [GRAPHIC] [TIFF OMITTED] T7534.014
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                              June 6, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. You mentioned that about 90 percent of the barriers are 
still available, was there a significant problem with the barriers 
leaking and sinking, or was that just something that happened to a few 
of them?
    Mr. Betro. Prior to installing the Dunlop Anti-Boat Barrier (DABB) 
system, a full-scale test was performed by the Naval Facilities 
Engineering Service Center (NFESC) on the existing commercial-off-the-
shelf (COTS) 6-foot diameter units. Testing demonstrated DABB's 
effectiveness in stopping the threat for which they were designed.
    NFESC recommended to NCIS the implementation of a larger diameter 
unit to deter the widest range of expected small boat attacks. The 
larger diameter unit required modification of the existing COTS 6-foot 
diameter design and was put into production very rapidly in the 
immediate wake of the 9/11 attacks. Operational verification testing 
was conducted in Norfolk, VA in early 2002 on initial DABB units. The 
units were found to be susceptible to leakage around and through the 
end flanges. Upon Navy notification, Dunlop pursued modifications, 
improving both lifecycle and performance capabilities. By the end of 
the production run in late 2003, leakage issues had been minimized.
    In October 2003, the Navy designated the Naval Facilities 
Engineering Command (NAVFAC) as manager of the AT/FP program. NAVFAC 
tasked NFESC to manage the Navy's Waterside Security Systems. In this 
capacity, the NFESC has established standardized maintenance, 
inspection, and operation procedures for the Dunlop barrier systems. A 
centralized storage and maintenance depot for the Dunlop barriers was 
established. This pneumatic design requires adjustment of the air 
bladder from daily thermal expansion and contraction. Depending on the 
site and range of temperature differentials this can impact regular 
maintenance actions. As early production units show leakage problems in 
the field, they are removed from service and returned to the depot for 
refurbishment. New units from the end of the production run are issued 
from the depot to replace the leaking units.
    In our experience, the maintenance requirements are typical for 
this type of structural system when operating in a marine environment. 
As noted in the NCIS testimony, roughly 90 percent of the DABB units 
purchased by the Navy remain deployed or in the NFESC depot available 
for deployment today.
    Mr. Taylor. It is my understanding that U.S. Attorneys cannot talk 
about ongoing investigations, but it is also my understanding that 
those people who have approached a U.S. attorney are free to say, I 
have approached that U.S. Attorney and asked them to look into this 
subject. And for the record, I would like the names of the United 
States attorneys that have been approached, and what days they were 
approached, and what information was given to them.
    Mr. Betro. Below is the list of all Assistant United States 
Attorneys (AUSAs) briefed and the date of declination/referral, or, in 
the case of DC, the last meeting on this topic:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. You mentioned that about 90 percent of the barriers 
are still available, was there a significant problem with the barriers 
leaking and sinking, or was that just something that happened to a few 
of them?
    Mr. Betro. Prior to installing the Dunlop Anti-Boat Barrier (DABB) 
system, a full-scale test was performed by the Naval Facilities 
Engineering Service Center (NFESC) on the existing commercial-off-the-
shelf (COTS) 6-foot diameter units. Testing demonstrated DABB's 
effectiveness in stopping the threat for which they were designed.
    NFESC recommended to NCIS the implementation of a larger diameter 
unit to deter the widest range of expected small boat attacks. The 
larger diameter unit required modification of the existing COTS 6-foot 
diameter design and was put into production very rapidly in the 
immediate wake of the 9/11 attacks. Operational verification testing 
was conducted in Norfolk, VA in early 2002 on initial DABB units. The 
units were found to be susceptible to leakage around and through the 
end flanges. Upon Navy notification, Dunlop pursued modifications, 
improving both lifecycle and performance capabilities. By the end of 
the production run in late 2003, leakage issues had been minimized.
    In October 2003, the Navy designated the Naval Facilities 
Engineering Command (NAVFAC) as manager of the AT/FP program. NAVFAC 
tasked NFESC to manage the Navy's Waterside Security Systems. In this 
capacity, the NFESC has established standardized maintenance, 
inspection, and operation procedures for the Dunlop barrier systems. A 
centralized storage and maintenance depot for the Dunlop barriers was 
established. This pneumatic design requires adjustment of the air 
bladder from daily thermal expansion and contraction. Depending on the 
site and range of temperature differentials this can impact regular 
maintenance actions. As early production units show leakage problems in 
the field, they are removed from service and returned to the depot for 
refurbishment. New units from the end of the production run are issued 
from the depot to replace the leaking units.
    In our experience, the maintenance requirements are typical for 
this type of structural system when operating in a marine environment. 
As noted in the NCIS testimony, roughly 90 percent of the DABB units 
purchased by the Navy remain deployed or in the NFESC depot available 
for deployment today.
    Mr. Bartlett. It is my understanding that U.S. Attorneys cannot 
talk about ongoing investigations, but it is also my understanding that 
those people who have approached a U.S. attorney are free to say, I 
have approached that U.S. Attorney and asked them to look into this 
subject. And for the record, I would like the names of the United 
States attorneys that have been approached, and what days they were 
approached, and what information was given to them.
    Mr. Betro. Below is the list of all Assistant United States 
Attorneys (AUSAs) briefed and the date of declination/referral, or, in 
the case of DC, the last meeting on this topic:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
